BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. _ _
JASON CUNNINGHAM, Individually and as Adult
Natural Son and Sole Wrongful Death Beneficiary
and next of Kin, Affiant and Administrator Ad Litem
and Personal Representative for Nancy Jane
Lewellyn, Deceased and Estate of Nancy Jane
Lewellyn,

Petitioner,
V.

ROBERT PASCHAL, Individually and in his Official
Capacity as a Shelby County Sheriffs Deputy and
MARVIN WIGGINS, Individually and in his Official
Capacity as a Shelby County Sheriffs Deputy,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Petition for Writ of Certiorari contains 8,753
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 16, 2021.
Do
Becker Gallagher Legal Pu
·ng, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001
1

www.beckergallagher.com

' 8790 Governor's Hill Drive
' Suite 102
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

\...J1

